August 15, 2006

MEMORANDUM

TO:           Director, USAID/West Bank and Gaza, James A. Bever

FROM:         Regional Inspector General/Cairo, David H. Pritchard /s/

SUBJECT:      Information on Status and Results of the First 60 Financial Audits of
              USAID/West Bank and Gaza Activities in Accordance with the Statutory
              Requirements of the Appropriations Acts of 2003, 2004, 2005, and 2006
              (Report No. 6-294-06-002-S)

This memorandum transmits our final report on the subject. We have considered your
comments on the draft report and have included your response in its entirety as
Appendix I. This is not an audit report, and the report does not contain suggestions or
recommendations.

I appreciate the cooperation and courtesy extended to our staff throughout the survey.
BACKGROUND
The Consolidated Appropriations Resolution of 2003, the Consolidated Appropriations
Act of 2004, the Consolidated Appropriations Act of 2005, and the Foreign Operations,
Export Financing, and Related Programs Appropriations Act of 2006, included the
following requirement.

         The Administrator of the United States Agency for International
         Development shall ensure that Federal or non-Federal audits of all
         contractors and grantees, and significant subcontractors and subgrantees,
         under the West Bank and Gaza Program, are conducted at least on an
         annual basis.

To fulfill this requirement, each of these Acts says the USAID Office of Inspector General
may use up to $1 million of the funds appropriated for audits, inspections, and other
activities.

To help USAID meet its expanded audit requirements under the above legislation, the
Office of Inspector General has implemented a program to audit annually USAID’s
contractors and grantees, and significant subcontractors and subgrantees, that receive
USAID funding for the West Bank and Gaza Program. This is the second report issued for
the financial audit program. The Office of Inspector General issued the first report on the
first 30 audit reports on March 28, 2005. 1

SURVEY OBJECTIVE
We conducted this survey as part of the Office of Inspector General’s audit plan to
answer the following question:

•    What are the status and results of the first 60 financial audits of USAID/West Bank
     and Gaza activities in accordance with the statutory requirements of the
     appropriations acts of 2003, 2004, 2005, and 2006?




1
TPAudit Report No. 6-294-05-002-S, “Information on Status and Results of the First 30 Financial
Audits of USAID/West Bank and Gaza Activities in Accordance with the Statutory Requirements
of the Consolidated Appropriations Acts of 2003, 2004, and 2005,” March 28, 2005


                                                                                             2
DISCUSSION
As of June 5, 2006, USAID had procured 116 financial audits, and the Office of Inspector
General had released 60 final audit reports. Appendix I provides a list of these 60 final
reports. As required by the legislation, USAID is procuring additional audits in fiscal year
2006.

Questioned Costs
As shown in Table 1, the first 60 financial audits resulted in $2.9 million in questioned
costs out of $134.9 million audited. Of the 60 audits, the first 30 audits resulted in
questioned costs of $2.0 million while the next 30 audits resulted in $0.8 million in
questioned costs. The overall costs audited increased from $50 million for the first 30
audits to $84 million for the second 30 audits.

                             Table 1: Questioned Costs
                 Unsupported 2      Ineligible 3
    Reports       Questioned       Questioned      Questioned       Audited
    Issued          Costs             Costs            Costs         Costs
        1-30          $232,742        $1,779,369       $2,012,111  $50,490,616
       31-60            303,664           544,329         847,993   84,367,802
      TOTAL           $536,406         $2,323,698      $2,860,104 $134,858,418

The overall $2.9 million in questioned costs (from 35 of the 60 audit reports) were 2.1
percent of the total audited costs. The questioned costs represent 4.0 percent for the
first 30 audits and 1.0 percent for the second 30 audits as shown in Chart 1 below.

            Chart 1: Questioned Costs as a Percentage of Audited Costs

                   Questioned Costs as a Percentage of Audited
                                     Costs

         5.0%
                         4.0%
         4.0%
         3.0%
                                                                       2.1%
         2.0%
                                                1.0%
         1.0%
         0.0%
                         1-30                   31-60               AVERAGE
                                           Reports Issued


2
  Unsupported questioned costs are costs which lacked adequate documentation or required prior
approvals or authorizations.
3
  Ineligible questioned costs are costs that were unreasonable, prohibited by the agreements or
applicable laws and regulations, or were not program related.


                                                                                             3
Reportable Conditions in Internal Control
and Material Instances of Noncompliance
In addition to questioned costs, the 60 financial audits disclosed 33 reportable conditions
in internal control and 68 material instances of noncompliance with agreement terms and
applicable laws and regulations. Four of the 60 audits disclosed 30 of the 33 reportable
conditions and 7 of the 60 financial audits disclosed 36 of the 68 material instances of
noncompliance. As shown in Table 2, the first 30 audits reported 73 reportable
conditions and instances of noncompliance while the second 30 audits reported 28.

     Table 2: Number of Reportable Conditions in Internal Control and Material
                           Instances of Noncompliance
       Reports      Reportable Conditions Material Instances of
        Issued        in Internal Control 4    Noncompliance 5         Total
               1-30            28                      45               73
              31-60             5                      23               28
              Total            33                      68               101

As shown in Chart 2, the average number of reportable conditions and material
instances of noncompliance was 1.7 per report for the first 60 audits—an average of 2.4
instances for the first 30 audits and 0.9 for the second 30 audits. Thirty-two of the 60
reports had neither reportable conditions nor material instances of noncompliance.

    Chart 2: Average Number of Reportable Conditions and Material Instances of
                       Noncompliance per Report Issued


                             Average Number of Reportable Conditions and
                                     Instances of Noncompliance

                       3.0
                                    2.4
                       2.5
                                                                             1.7
           Instances




                       2.0
                       1.5
                                                     0.9
                       1.0
                       0.5
                       0.0
                                   1-30             31-60                AVERAGE
                                                Reports Issued




4
  Reportable conditions in internal control relate to significant deficiencies in the design or
operation of internal control that could adversely affect the recipient’s ability to record, process,
summarize, and report financial data.
5
  Material instances of noncompliance relate to noncompliance with agreement terms and
applicable laws and regulations that could have a direct and material effect on the fund
accountability statement of the organization.


                                                                                                   4
CONCLUSION
This report provides the status and results of the first 60 financial audit reports of
USAID/West Bank and Gaza activities conducted in accordance with the statutory
requirements of the appropriations acts of 2003, 2004, 2005, and 2006. We plan to
periodically issue status reports, which will report on cumulative and comparative results
over time.




                                                                                        5
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/West Bank and Gaza provided additional helpful
information on the status of the program, including the status of recommendations, the
status of questioned costs, examples of questioned costs, and examples of reportable
conditions in internal control and material instances of noncompliance. For example,
USAID/West Bank and Gaza provided data that showed:

•   For the second 30 audit reports that were released to the Mission, 18 of these
    reports included 34 recommendations; 29 recommendations were related to
    questioned costs, and 5 were related to internal control and compliance issues.
•   For the status of the questioned costs of $847,993 for the second 30 audit reports,
    $452,403 were costs disallowed and collected from recipients, $248,261 were costs
    allowed by the Mission, and $147,329 were costs outstanding pending final
    determination.
•   Examples of questioned costs included over billing, incorrect calculation of indirect
    costs, compliance with source and origin requirements, and lack of prior USAID
    approval of procurement actions.
•   For the status of the 5 recommendations relating to internal control and compliance
    issues, in 4 cases the Mission agreed with the recommendations and took corrective
    actions, and in 1 case the Mission found that the contractor was in compliance with
    the agreement terms and applicable laws and regulations.
•   Examples of reportable internal control conditions and material instances of
    noncompliance included improper compliance with source and origin requirements,
    noncompliance with Acquisition and Assistance Policy Directive 02-04,
    “Implementation of Executive Order 13224—Executive Order on Terrorism
    Financing”, lack of contract provisions for sub-awards, and lack of cost sharing
    review of sub-awardees.

USAID/West Bank and Gaza said that based on the materiality of the questioned costs
and the general findings on internal controls and compliance, the risk level according to
the audits appears minimal. We neither agree nor disagree that the risk level appeared
minimal. Assessing risk needs to account for both internal and external factors, some
being outside the span of control of management. Examples of outside factors include
significance and sensitivity.

USAID/West Bank and Gaza said that the Mission was taking proper steps to ensure
compliance by its contractors and grantees. The Mission also said that it was taking
timely actions to ensure that management decisions were reached and that outstanding
recommendations were timely addressed and closed. We agree and appreciate the
Mission’s collaboration in ensuring that outstanding recommendations are timely
addressed.




                                                                                       6
                                                                        APPENDIX I

        Summary of West Bank and Gaza First 60 Financial Audits

                                                                        Reportable
                                                                      Conditions in
                                                                     Internal Control
                                          Total                        and Material
          Report                        Questioned    Total Costs      Instances of
 #        Number         Recipient        Costs        Audited       Noncompliance
       Various - See
1 to   footnote 1 on
 30    page 2             Subtotal=     $2,012,111    $50,490,616                  73
                        The Services
31     6-294-05-016-N   Group              $304,043     $1,694,331                  7
32     6-294-05-017-N   Chemonics                $0      $749,532                   0
                        International
                        Youth
33     6-294-05-018-N   Foundation              $0        $795,269                  0
                        Catholic
                        Relief
34     6-294-05-020-N   Services             $7,804       $518,642                  0
                        Catholic
                        Relief
35     6-294-05-021-N   Services           $171,965       $977,464                  0
                        Catholic
                        Relief
36     6-294-05-022-N   Services             $1,306     $3,716,778                  0
                        Associates in
                        Rural
37     6-294-05-024-N   Development           $980        $996,171                  0
                        Cooperative
                        Housing
38     6-294-05-025-N   Foundation          $16,044     $1,881,697                  1
                        Cooperative
                        Housing
39     6-294-05-026-N   Foundation          $13,692     $1,935,269                  2
                        Cooperative
                        Housing
40     6-294-05-027-N   Foundation          $21,153     $2,696,991                  1
                        Cooperative
                        Housing
41     6-294-05-028-N   Foundation          $16,747       $757,939                  2
                        Cooperative
                        Housing
42     6-294-05-029-N   Foundation          $54,736     $2,207,682                  2
                        Cooperative
                        Housing
43     6-294-05-030-N   Foundation          $26,226     $3,977,850                  2
                        Palestinian
44     6-294-05-032-N   Authority           $58,322    $12,291,549                  1
                        Palestinian
                        Academic
                        Society for
                        the Study of
                        International
45     6-294-05-034-N   Affairs              $4,612       $761,711                  1



                                                                                   7
                                                                         APPENDIX I

                                                                         Reportable
                                                                       Conditions in
                                                                      Internal Control
                                           Total                        and Material
          Report                         Questioned    Total Costs      Instances of
 #        Number          Recipient        Costs        Audited       Noncompliance
                         Palestinian
 46     6-294-05-035-N   Authority               $0     $20,000,038                  0
                         Financial
                         Markets
 47     6-294-05-036-N   International       $20,000       $649,726                  5
                         Youth Project
                         Developing
                         Council
 48     6-294-05-037-N   (subgrantee)            $0        $532,386                  0
                         Development
                         Alternatives,
 49     6-294-05-038-N   Inc.                $10,900     $5,587,216                  0
                         Development
                         Alternatives,
 50     6-294-05-039-N   Inc.                    $0         $66,871                  0
                         Palestinian
 51     6-294-06-001-N   Authority           $12,189     $2,239,178                  1
                         Metcalf and
 52     6-294-06-002-N   Eddy                  $300      $1,855,573                  0
                         Industrial
                         Details
 53     6-294-06-003-N   (subgrantee)            $0        $157,783                  0
                         Massar
                         Associates
 54     6-294-06-004-N   (subgrantee)            $0        $144,901                  0
                         International
                         Technology
                         Investment
 55     6-294-06-005-N   (subgrantee)            $0        $636,446                  0
                         Palestinian
 56     6-294-06-007-N   Authority               $0      $1,190,533                  0
                         Save the
                         Children
 57     6-294-06-008-N   Federation          $71,392     $4,555,535                  1
                         Associates in
                         Rural
 58     6-294-06-009-N   Development         $35,582     $4,871,208                  2
                         Mercy Corps
 59     6-294-06-010-N   International           $0      $4,805,688                  0
                         Palestinian
 60     6-294-06-011-N   Authority               $0      $1,115,845                  0
31 to
 60                        Subtotal=       $847,993    $84,367,802                  28

1 to
 60                        TOTALS=       $2,860,104 $134,858,418                   101



                                                                                    8
                                                                                       APPENDIX II



MANAGEMENT COMMENTS


DATE:            July 17, 2006

TO:              David H. Pritchard, Regional Inspector General / Cairo

FROM:            James A. Bever, Mission Director / USAID West Bank and Gaza /s/

SUBJECT:         Information on status and results of the first 60 financial audits of USAID West
                 Bank and Gaza activities in accordance with the statutory requirements of the
                 Appropriations Acts of 2003, 2004, 2005 and 2006. (Report No. 6-294-06-00x-S)

Reference:       Pritchard / Bever memorandum dated 7/6/06


USAID West Bank and Gaza Mission would like to thank the Regional Inspector General / Cairo
for their draft status report regarding the results of the first 60 financial audits of USAID West
Bank and Gaza activities. We have reviewed the subject report and the following are our
comments with regard to the second 30 audit reports:

For the second 30 audit reports that were released to the Mission, 18 of these reports included
34 recommendations; 29 recommendations were related to questioned costs and 5 were related
to internal control and compliance issues. The Mission has reached a management decision
with RIG/C for all 34 recommendations. Currently 9 recommendations relating to 8 audit reports
are pending final action. Seven out of the nine recommendations are pending final
determination of M/OAA with relation to an appeal that was submitted to the OP director
subsequent to the Agreement Officer’s final determination.

Regarding questioned costs in the total amount of $847,993, the status of these costs is as
follows:

            31 - 60        1 - 30

          $452,403          $ 94,589        Costs disallowed and collected from recipients
           248,261           894,496        Costs allowed by the Contracting / Agreement Officer
           147,329                 0        Costs outstanding pending final determination of M/OAA
                 0         1,023,026        Costs outstanding pending the Mission reaching a
                                            management decision with RIG/C
         $ 847,993      $ 2,012,111         Total



U.S. Agency for International Development                                                            9
American Embassy
71, Hayarkon St.
Tel Aviv, Israel 63903
www.usaid.gov/wbg
                                                                                     APPENDIX II


Examples of questioned costs (due to lack of documentation or ineligibility) included over billing,
incorrect calculation of indirect costs, compliance with source and origin requirements, and lack
of prior USAID approval of procurement actions.

Regarding recommendations relating to internal control and compliance issues, the status of
these recommendations is as follows:

       4       Contracting/Agreement Officer agreed with the recommendations and corrective
               action has already been taken.
       1       Contracting/Agreement Officer found that the contractor was in compliance with
               the agreement terms and applicable laws and regulations and there were no
               internal control deficiencies.
       5       Total Recommendations

Examples of reportable internal control conditions and material instances of noncompliance
included improper compliance with source and origin requirements, noncompliance with AAPD
02-04 “Implementation of E.O.13224 – Executive Order on Terrorism Financing”, lack of
contract provisions for sub-awards, and lack of cost sharing review of sub-awardees.

Based on the materiality of the questioned costs and the general findings on internal controls
and compliance, the risk level according to the audits appears minimal. The Mission is taking
proper steps to ensure compliance by its contractors and grantees and is taking timely actions
to ensure that management decisions are reached with RIG/C and that outstanding
recommendations are timely addressed and closure reached with M/CFO/APC.




                                                                                                10
